No._____________

In The
Supreme Court of the United States
ANDREW HARGETT, JR.,

Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached Petition for Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis
and was represented by appointed counsel in the United States Court of Appeals for
the Fourth Circuit.
The appointment was made under the following provision of law: Criminal
Justice Act of 1964, 18 U.S.C ยง 3006A.
Respectfully submitted this 31st day of July, 2020.

Kelly Margolis Dagger
Counsel of Record
Paul K. Sun, Jr.
Ellis & Winters LLP
Post Office Box 33550
Raleigh, North Carolina 27636
(919) 865-7000
Counsel for Petitioner

